      S£,1l. V ICES
      S£,1lVICES



(/          ~
                           HEALTH &.
                           DEPARTMENT OF HEALTH &.HUMAN
                                                   HUMA SERVICES
                                                         SERVICES                                                                  Office of Inspector General

  <o/~~~
  ~o/~~~
(/ ;ø DEPARTMENT OF

                                                                                                                                   Washington, D.C. 20201



                                                                              OCT
                                                                              OCT 33 11 2008

                                                                                         2008


                      TO:
                      TO:        DanelDaniel
                                       C. Schneider
                                             C. Schneider
                                              Acting Assistant Secretary for Children and Families


                      FROM:                   Danel R.
                                              Daniel R. Levinson     ~1\.
                                                                       M., ¿f"A
                                                                           ~ /J ~~H"-r~
                                                                                rr---­
                                              Inspector General


                      SUBJECT: Review
                                 ReviewofImproper Temporar
                                         ofImproper Temporary Assistance
                                                                AssistanceforforNeedy
                                                                                 NeedyFamiles
                                                                                       FamiliesBasic
                                                                                                BasicAssistance
                                                                                                     Assistance
                                             Pennsylvana for
                                Payments in Pennsylvania  for April
                                                              April 1,
                                                                     1, 2006,
                                                                        2006, Through
                                                                              Through March
                                                                                       March 31,
                                                                                             31, 2007
                                 (A-03-07-00552)
                                 (A-03-07-00552)


                                      advance copy
                      Attached is an advance   copy ofof our
                                                         our final
                                                              final report
                                                                    report on
                                                                            on improper
                                                                                improper Temporary
                                                                                         Temporar Assistance
                                                                                                       Assistance for
                                                                                                                   for Needy
                                (T ANF)basic
                      Families (TANF)     basicassistance
                                                assistancepayments
                                                             paymentsininPennsylvania
                                                                            Pennsylvana for
                                                                                          forApril
                                                                                               April 1,
                                                                                                     1,2006,
                                                                                                        2006,through
                                                                                                              though
                      March 31,
                      March   31, 2007.
                                  2007. We
                                         We will
                                             wil issue
                                                  issue this report
                                                              report to
                                                                      to the
                                                                          the Pennsylvania
                                                                              PennsylvaniaDepartment
                                                                                              Deparent ofofPublic
                                                                                                             PublicWelfare
                                                                                                                     Welfare
                      (the
                      (the State
                           State agency)
                                 agency) within
                                          within 55 business
                                                    business days.    The Administration
                                                               days. The    Administration for
                                                                                             for Children
                                                                                                 Children and
                                                                                                          and Families
                                                                                                               Families (ACF)
                                                                                                                         (ACF)
                           the Office
                      and the  Offce of
                                      of Management and Budget requested
                                                                       requested this
                                                                                  ths audit.
                                                                                      audit.

                      The
                      The TANFTANF       program,
                               program, which the Federalwhich
                                                          and State the   Federal and State Governments jointly
                                                                     Governents                               jointly fund   andadminister,
                                                                                                                       fud and    administer, is
                                                                                                                                               is aa

                      block grant
                                grant program
                                          programthat    thatprovides
                                                                provideseligibleeligiblefamilies
                                                                                         familieswith
                                                                                                  withwork
                                                                                                         workopportunities
                                                                                                               opportties andandother
                                                                                                                                  otherassistance,
                                                                                                                                        assistance,
                      including basic basic assistance
                                                assistace payments
                                                                paymentsfor      forsuch
                                                                                     suchongoing
                                                                                          ongoingbasic
                                                                                                    basicneeds
                                                                                                          needs as
                                                                                                                 as food,
                                                                                                                     food, clothing,
                                                                                                                            clothing, shelter,
                                                                                                                                      shelter, and
                      utilities. Federal
                                     Federal and  and State
                                                         State laws,
                                                                  laws, regulations,
                                                                            regulations, and
                                                                                           and other
                                                                                               other requirements
                                                                                                      requirements establish
                                                                                                                     establish TANF
                                                                                                                                TANF eligibility,
                                                                                                                                        eligibility,
                      payment, and documentation requirements.

                      Our objectives were to determine
                                             determine whether
                                                         whether the
                                                                   the State
                                                                       State agency
                                                                             agency (1) made
                                                                                        made TANF
                                                                                               T ANF basic
                                                                                                       basic assistance
                                                                                                             assistace
                      payments to or on behalf of recipient
                      payments to or on behalf of recipient families
                                                              familes in
                                                                       in accordance
                                                                           accordance with
                                                                                      with Federal
                                                                                           Federal and   State requirements
                                                                                                    and State   requirements

                                                   eligibilty and
                      and adequately documented eligibility    and payment
                                                                    paymentdeterminations
                                                                              determinations and
                                                                                             and (2)
                                                                                                  (2) accurately
                                                                                                      accurately reported
                            assistance expenditures
                      basic assistance expenditues to ACF.

                      For the period April 1,
                                           1, 2006, through
                                                    through March
                                                             March 31,
                                                                   31, 2007,
                                                                       2007, the
                                                                              the State
                                                                                   Stateagency
                                                                                         agencymade
                                                                                                madesome
                                                                                                      someTTANF
                                                                                                              ANF basic
                      assistance payments  that did not meet Federal and State requirements   and did not  adequately
                      assistace payments that did not meet Federal and State requirements and did not adequately
                      document all eligibility and payment determinations. The
                                                                             The State
                                                                                  State agency
                                                                                         agency accurately
                                                                                                accurately reported
                                                                                                            reported basic
                      assistance expenditures
                      assistance expenditues to ACF.

                      We
                      We did did   not identify
                             not identify any errors inany   errors
                                                        126 of 
        in 126 of the 150 payments
                                                                                          payments in
                                                                                                    in our
                                                                                                       our statistical sample.  However,
                                                                                                                       sample. However,
                      the   remaining
                      the remaining          24werepayments
                                    24 payments      improper. For were                                                         familes were
                                                                   13 of 
 improper. For 13 of these payments, the recipient families

                      ineligible for TANF basic assistance or the payments were calculated improperly.           improperly. For
                                                                                                                               For 11
                                                                                                                                   11
                      payments,
                      payments, the     the case
                                              case files
                                                      fies did not contain all required
                                                                                     requied documentation
                                                                                             documentation supporting eligibility
                                                                                                                          eligibilty and
                                                                                                                                      and
                      payment determinations.
Page 2 – Daniel C. Schneider


Based on our sample results, we estimated that the overall TANF improper payment rate was
11.7 percent of the Federal dollars expended and 16 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$23,659,002 (Federal share) for 165,331 improper payments.

We recommend that the State agency:

   •   use the results of this review to help ensure compliance with Federal and State TANF
       requirements by (1) reemphasizing to recipients the need to provide accurate and timely
       information and (2) requiring its county assistance office employees to verify eligibility
       information and maintain appropriate documentation in all case files,

   •   determine the current eligibility of all recipients identified in this review as improperly
       enrolled in the TANF program and ensure that further assistance is denied for those who
       remain ineligible, and

   •   recalculate assistance budgets for all recipients identified in this review as having
       received improperly calculated payments.

In its comments on our draft report, the State agency concurred with all of our recommendations.
The State agency separately provided additional information about one budget calculation. We
have modified the final report to reflect the additional information.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or Stephen Virbitsky, Regional Inspector General for Audit Services,
Region III, at (215) 861-4470 or through e-mail at Stephen.Virbitsky@oig.hhs.gov. Please
refer to report number A-03-07-00552.


Attachment
  ~","Vl<I#.       DEPARTMENTOF
                              OFHEALTH
                                 HEALTH&& HUMN
                                          HUMAN SERVICES                                                 OFFCE OF INSPECTOR GENERAL
                                                                                                          O~CEOFmSPECTORGENERAL




(~
                   DEPARTMNT                   SERVICES
(~
,.::::8'-
,~~
                                                                                                         Offce
                                                                                                          OfficeofofAudit
                                                                                                         Public
                                                                                                                    AuditServce
                                                                                                          Public Leger
                                                                                                         150
                                                                                                                          Services,Regon
                                                                                                                 LedgerBuidi, Suite
                                                                                                                       BuildiDg,
                                                                                                                                    Regionm
                                                                                                                                 Suite316
                                                                                                                                          m
                                                                                                                                       316 . .
                                                                                                          150S.lndependence
                                                                                                             S.lndependenceMal
                                                                                                                            MallWest
                                                                                                                                 West
                                                                                                         ·Phlladelphia. PA
                                                                                                        .Pluadelphia,   PA19106-3499

                                                                                                                           19106-3499




                                                                 ..NOV·
                                                                   NOV. -- 442003
                                                                              2008
                 Report Number:
                Report  Number: A-03-07
                                 A-03-07-00552
                                        -00552


                  Mr.Theodore
                 Mr.  Theodore Dalas
                                Dallas
                  Executive Deputy
                 Executive  Deputy Secretar
                                    Secretary
                  Pennsylvania Department
                 Pennsylvana Deparent ofofPublic
                                              PublicWelfare
                                                    Welfare
                  P.O. Box
                 P.O.  Box2675
                           2675
               .. HarrisbUrg,
                  Harsburg, Pennsylvania·   11105-2675
                              Pennsylvana 11105-2675


                Dear Mr. Dalas:

                Dear Mr. Dallas:

                Enclosed is
                Enclosed         is the
                                    the U.S.
                                           U.S.Department
                                                   Deparent ofof          Healthand
                                                                        Health    andHuman
                                                                                       HumanServices
                                                                                               Services (OOS),
                                                                                                        (OOS), Office   ofInspector
                                                                                                                 Offce of   Inspector
                General       (DIG),      final   report     entitled     "Review   of  Improper Temporary
                General (OIG), final report entitled "Review of Improper Temporar Assistace for Needy        Assistance   for Needy
                Families Basic Assistance Payments in Pennsylvania for April
                Famlies Basic Assistace Payments in Pennsylvana for April 

                                                                                                      1, 2006,  Through March 31,
                                                                                                                 Though  March    31,
               .2007."       We     will   forward       a  copy     of  this report to  the OOS action official
               .2007." We wil forward a copy of ths report to the OOS action offcial noted on the following      noted on  the following
                page for for
                page           reviewreviewand any action    and   deemedanynecessary.·
                                                                                action deemed necessar.. .
                      ,

                The OOS
                The  OOS action
                           actionofficial  willmake
                                   offcial wil  makefinal
                                                      finaldetermnation
                                                            detenninationasas to
                                                                              to actions
                                                                                 actions taken  on all
                                                                                          taen on      mattersreported.
                                                                                                   al mattrs    reported.
                We request
                We  request that
                             thatyou
                                  yourespond
                                       respondtotothis
                                                    thsofficial
                                                        officialwithin 30 days
                                                                 with 30  days ft:om
                                                                                from the
                                                                                      thedate
                                                                                           dateoftbis  letter. Your
                                                                                                ofths letter.  Your
                response should  present
                response should present any comments or additional inormåtion that you believe may have aa
                                           any comments    or additional information  that  you believe  may   have
                bearingon
                bearg   onthe
                           thefinal
                               final determnation.
                                      determiDation.

                Pursuant
                Pusuant toto the
                              the principles
                                  principles of
                                              of the
                                                  the Freedom
                                                       Freeom of of Inormtion
                                                                    InformationAct,       U.S.C.§§552,
                                                                                 Act,5 5U.S.C.     552,asasamended
                                                                                                            amended byby
                Public  Law   104-231,   DIG   reports  generally   are made  available  to the public to the
                Public Law 104-231, OIG report generally are made available to the public to the extent the   extent the
                infonnation
                infoniation isis not
                                 not subject
                                      subject to exemptions in
                                              to exemptions     in the
                                                                   the Act
                                                                        Act(45
                                                                            (45CPR
                                                                                CPRpart
                                                                                      par 5).   Accordingly, this
                                                                                            5). Accordingly,      report
                                                                                                              ths report
                will be posted   on  the Internet  at http://oig.hhs.gov.
                wil be posted on the Internet at http://oig.hhs.gov.

                If
                If you
                   you have
                       have any
                            any questions
                                questions or
                                          or comments
                                             comments about
                                                        about this  report, please.do
                                                                ths report, please.do not
                                                                                      not hesitate
                                                                                          hesitate to
                                                                                                   to call
                                                                                                      call me,
                                                                                                           me, or
                                                                                                               or
                contact Michael Walsh,  Audit Manager,   at (215)  861-4480   or through
                contact Michael Walsh, Audit Manager, at (215) 861-480 or though e-mai ate-mail at
                MichaeI.Walsh@oig.hhs.gov.
                MichaeI.WalshWoig.hhs.gov. Please
                                               Please refer
                                                      refer to
                                                            to report
                                                               report number    A-03..07-00552ininall
                                                                       number A-03..:07-00552       al
                correspondence.
                correspondence.

                                                                        Sincerely,
                                                                        Sincerely,


                                                                        )1l'L~
                                                                        StephenVirbitsky
                                                                        Stephen  Virbitsky
                                                                        RegionalInspector
                                                                        Regional  InspectorGeneral
                                                                                            General
                                                                          for
                                                                           forAudit
                                                                              AuditServices
                                                                                    Services


                Enclosure
                Enclosure
Page 2 - Mr. Theodore Dallas


Direct Reply to HHS Action Official:

Mr. David J. Lett
Regional Administrator
Administration for Children and Families
U.S. Department of Health and Human Services, Region ill
150 South Independence Mall West, Suite 864
Philadelphia, Pennsylvania 19106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF IMPROPER
  TEMPORARY ASSISTANCE FOR
    NEEDY FAMILIES BASIC
   ASSISTANCE PAYMENTS IN
      PENNSYLVANIA FOR
    APRIL 1, 2006, THROUGH
       MARCH 31, 2007




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-03-07-00552
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Temporary Assistance for Needy Families (TANF) program, a block grant program,
provides eligible families with work opportunities and other assistance, including basic
assistance payments for such ongoing basic needs as food, clothing, shelter, and utilities. The
Federal and State Governments jointly fund and administer the TANF program. The
Administration for Children and Families (ACF), Office of Family Assistance, administers the
program at the Federal level.

Federal and State laws, regulations, and other requirements establish TANF eligibility, payment,
and documentation requirements. To be eligible for TANF, a needy family must, among other
requirements, include a minor child or pregnant woman, not exceed established time limits for
receiving assistance, engage in work activities, not exceed income and resource thresholds
established by the State, meet citizenship and residency requirements, submit a written
application for benefits, and furnish the Social Security number of each family member. The
State must maintain records on the provision of assistance, including facts to support eligibility
and payment determinations.

In Pennsylvania, the Department of Public Welfare (the State agency) administers the TANF
program. The State agency’s county assistance offices determine the eligibility of applicants and
the payment amounts for basic assistance. For the period April 1, 2006, through March 31,
2007, the State agency made 1,033,318 monthly basic assistance payments totaling $333,730,859
($201,625,124 Federal share) to or on behalf of TANF recipient families.

ACF and the Office of Management and Budget (OMB) requested this audit.

OBJECTIVES

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

SUMMARY OF FINDINGS

For the period April 1, 2006, through March 31, 2007, the State agency made some TANF basic
assistance payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations. The State agency accurately reported basic
assistance expenditures to ACF.

We did not identify any errors in 126 of the 150 payments in our statistical sample. However,
the remaining 24 payments were improper:




                                                 i
   •    For 13 payments, the recipient families were ineligible for TANF basic assistance or the
        payments were calculated improperly.

   •    For 11 payments, the case files did not contain all required documentation supporting
        eligibility and payment determinations.

Based on our sample results, we estimated that the overall TANF improper payment rate was
11.7 percent of the Federal dollars expended and 16 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$23,659,002 (Federal share) for 165,331 overpayments. The following table summarizes our
statistical estimates.

                           Statistical Estimates of Improper Payments

                                               Improper Payment Rate        Improper Payments

                                                Federal       No. of       Federal       No. of
                 Error Category                 Dollars      Payments      Dollars      Payments
  Eligibility and payment calculation errors      3.6%          8.7%       $7,417,206      89,554

  Documentation errors                            8.1%          7.3%       16,241,796      75,777

       Overall                                   11.7%         16.0%     $23,659,002     165,331


RECOMMENDATIONS

We recommend that the State agency:

   •    use the results of this review to help ensure compliance with Federal and State TANF
        requirements by (1) reemphasizing to recipients the need to provide accurate and timely
        information and (2) requiring its county assistance office employees to verify eligibility
        information and maintain appropriate documentation in all case files,

   •    determine the current eligibility of all recipients identified in this review as improperly
        enrolled in the TANF program and ensure that further assistance is denied for those who
        remain ineligible, and

   •    recalculate assistance budgets for all recipients identified in this review as having
        received improperly calculated payments.

STATE AGENCY COMMENTS

In its comments on our draft report (Appendix E), the State agency expressed its concerns about
developing a national TANF payment error rate. Nevertheless, the State agency concurred with




                                                  ii
all of our recommendations. The State agency separately provided additional information about
one budget calculation.

OFFICE OF INSPECTOR GENERAL RESPONSE

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
annual amount of improper payments in their programs and to report that estimate to Congress.
ACF and OMB requested this review of the TANF program for fiscal year 2008 performance
and accountability reporting.

We have modified this final report to reflect the additional information that the State agency
provided.




                                                iii
                                                  TABLE OF CONTENTS
                                                                                                                                         Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Improper Payments Information Act of 2002..........................................................1
              Temporary Assistance for Needy Families Program ...............................................1
              Pennsylvania’s Temporary Assistance for Needy Families Program......................2
              Federal and State Requirements Related to Temporary Assistance for Needy
                Families Basic Assistance....................................................................................3

          OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
               Objectives ................................................................................................................3
               Scope .......................................................................................................................3
               Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................5

          IMPROPER PAYMENTS ...................................................................................................6
               Eligibility and Payment Calculation Errors .............................................................6
               Documentation Errors..............................................................................................9

          CONCLUSION....................................................................................................................9

          RECOMMENDATIONS...................................................................................................10

          STATE AGENCY COMMENTS......................................................................................10

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................11

APPENDIXES

          A – FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          B – STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          C – SAMPLE DESIGN AND METHODOLOGY

          D – SAMPLE RESULTS AND ESTIMATES

          E – STATE AGENCY COMMENTS




                                                                    iv
                                            INTRODUCTION

BACKGROUND

The Administration for Children and Families (ACF) and the Office of Management and Budget
(OMB) requested this review of the Temporary Assistance for Needy Families (TANF) program
for fiscal year 2008 performance and accountability reporting.

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (Public Law 107-300) requires Federal
agencies to estimate and report to Congress on the annual amount of improper payments in their
programs, the causes of the improper payments, and the corrective actions taken. Section 2(d)(2)
of this Act (31 U.S.C. § 3321) states that an improper payment:

        . . . (A) means any payment that should not have been made or that was made in
        an incorrect amount (including overpayments and underpayments) under
        statutory, contractual, administrative, or other legally applicable requirements;
        and
        (B) includes any payment to an ineligible recipient, any payment for an ineligible
        service, any duplicate payment, payments for services not received, and any
        payment that does not account for credit for applicable discounts.

To clarify this definition, OMB Circular A-123, Appendix C, part I.A, states that “when an
agency’s review is unable to discern whether a payment was proper as a result of insufficient or
lack of documentation, this payment must also be considered an error.”

Temporary Assistance for Needy Families Program

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law
104-193) established the TANF program to help families progress from welfare to self-
sufficiency. The Federal and State Governments jointly fund and administer the program. At
the Federal level, the ACF Office of Family Assistance administers the program. Within broad
national guidelines established by Federal statutes, regulations, and other requirements, States
have significant flexibility in designing their programs and determining eligibility requirements.

The Federal Government provides TANF funds in the form of block grants, which are specified
amounts directly allocated to States. To be eligible for a TANF block grant, a State must submit
a State plan to ACF within the 27-month period prior to the Federal fiscal year in which the
funds are to be provided. The State plan is an outline of how each State will operate its TANF
program, including program administration, criteria for determining eligibility and delivering
benefits, and assurances against fraud and abuse. ACF reviews the State plan for completeness
but does not issue an approval. ACF has stated that a determination that a plan is complete does
not constitute its endorsement of State policies. 1


1
 See 64 Federal Register 17720, 17847 (April 12, 1999).


                                                          1
Pursuant to section 401 of the Social Security Act (the Act), the TANF program provides
assistance and work opportunities to needy families. As a general rule, States must use the funds
for eligible families with a minor child or pregnant woman and for one of the four purposes of
the TANF program, including providing assistance to needy families. 2 Federal regulations
(45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and other forms of
benefits designed to meet a family’s ongoing basic needs, including, but not limited to, food,
clothing, shelter, and utilities. Such assistance is referred to as “basic assistance.”

States may use various funding options to provide benefits and services under their TANF
programs (e.g., commingled Federal and State funds or segregated State funds). The funding
option chosen determines what specific requirements apply and whether a particular use of funds
is appropriate. Commingled Federal and State funds are subject to Federal laws and
requirements.

Pennsylvania’s Temporary Assistance for Needy Families Program

In Pennsylvania, the Department of Public Welfare (the State agency) administers the TANF
program. The State agency uses the Client Information System, a computerized payment and
information reporting system, to process and pay TANF basic assistance benefits.

The State agency has opted to commingle Federal and State funds in its TANF program. For
families receiving TANF assistance for 60 months or less, the State agency, on average, funds
50 percent of its basic assistance expenditures from the Federal TANF block grant, and the State
agency pays the remaining 50 percent. For families receiving TANF assistance for more than
60 months (called extended TANF), the State agency funds 100 percent of its basic assistance
expenditures from the Federal TANF block grant.

Pursuant to Title 55 of the Pennsylvania Administrative Code (PA. CODE) § 125.1(a), individuals
must submit State agency-approved application forms for TANF basic assistance. The State
agency’s county assistance offices review the applications and determine whether individuals
meet TANF eligibility requirements. For each family, the county assistance office creates a
“budget group” that includes all eligible family members and, on the basis of the budget group
and other factors, calculates the amount of assistance to be paid. As part of the application
process, the county assistance office informs the applicant of his or her responsibility to notify
the office of any changes that might affect eligibility or payment status. Every 6 months
thereafter, pursuant to 55 PA. CODE § 133.23(a)(1)(v)(A), the county assistance office must
verify any updated information and redetermine the budget group’s eligibility. The State agency
conducts independent case file reviews on a sample basis to determine the validity of eligibility
determinations and benefit amounts and the sufficiency of documentation supporting these
determinations.




2
 The other purposes of TANF are to (1) end the dependence of needy parents by promoting job preparation, work,
and marriage; (2) prevent and reduce out-of-wedlock pregnancies; and (3) encourage the formation and maintenance
of two-parent families (section 401 of the Act).


                                                       2
Federal and State Requirements Related to Temporary
Assistance for Needy Families Basic Assistance

The State agency must comply with certain Federal requirements in determining and
redetermining eligibility and payment amounts. Federal regulations (45 CFR §§ 205.51–205.60
and parts 260–264) set forth basic TANF eligibility requirements that States must impose on
families receiving assistance, including time limits and work requirements for adults.
Appendix A of this report contains the specific Federal requirements related to TANF basic
assistance.

In addition, the Pennsylvania State plan, the public assistance provisions of Title 62 of the
Pennsylvania Statutes Annotated (PA. STAT. ANN.), the “Public Assistance Manual” at Title 55
of the PA. CODE, and State guidance establish TANF basic assistance requirements. The State
plan incorporates Federal requirements and establishes all other eligibility requirements, such as
income and resource levels, as set forth in 55 PA. CODE Chapters 100–299. Appendix B of this
report contains the specific State requirements related to TANF basic assistance.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

Scope

Our audit period covered April 1, 2006, through March 31, 2007. We did not review the overall
internal control structure of the Pennsylvania TANF program. Rather, we reviewed the State
agency’s procedures relevant to the objectives of the audit.

We performed fieldwork from August 2007 to March 2008 at the State agency’s offices in
Harrisburg and King of Prussia, Pennsylvania.

Methodology

To accomplish our objectives, we:

   •    reviewed Federal and State laws, regulations, and other requirements related to TANF
        basic assistance eligibility and payment amounts;

   •    held discussions with ACF regional officials and with State officials to obtain an
        understanding of policies, procedures, and guidance for determining TANF basic
        assistance eligibility and payment amounts;




                                                 3
    •   obtained a list of TANF basic assistance payments for the period April 1, 2006, through
        March 31, 2007, from the State agency’s Client Information System;

    •   combined all payments to or on behalf of each recipient family in a month and obtained a
        universe of 1,033,318 monthly payments totaling $333,730,859 ($201,625,124 Federal
        share);

    •   validated the universe of payments, including reported expenditures; and

    •   selected a simple random sample of 150 payments from the universe of 1,033,318
        monthly payments, as detailed in Appendix C.

For each of the 150 sampled items, we determined whether the corresponding case file
(electronic or paper) contained sufficient information for the county assistance office to have
made a TANF basic assistance eligibility determination on the date of initial determination or
redetermination. We also attempted to obtain sufficient independent information to determine
whether the recipient family was eligible for TANF basic assistance and received the proper
payment amount on the payment date selected. Specifically, we determined whether:

    •   the case file contained a completed application and an agreement of mutual responsibility
        signed by the required members of the recipient family;

    •   the case file contained a Social Security number for each member of the recipient family
        and, if so, whether the Social Security Administration had issued the number to the
        family member;

    •   the recipient family resided in Pennsylvania by checking driver’s licenses, rental
        agreements, landlord statements, and utility bills;

    •   each family member’s identity, including name and age, was adequately documented in
        the case file (e.g., birth certificates, adoption papers, court decrees, and passports);

    •   each noncitizen family member’s citizenship status in the case file matched the
        information on file with the U.S. Citizenship and Immigration Services’ Systematic Alien
        Verification for Entitlement program;

    •   the recipient family’s income was at or below the income threshold required to be eligible
        for TANF basic assistance on the payment date selected by reviewing information from
        the State’s Income Eligibility Verification System, the family member’s employer, and
        the case file; 3



3
 The Income Eligibility Verification System uses Social Security numbers to compare individuals in the Client
Information System against individuals in the State’s Commonwealth Judiciary Inquiry System database and in the
resource files of various State and Federal agencies, including the State Department of Labor and Industry and the
Social Security Administration.


                                                         4
   •   the recipient family’s resources were at or below the resource threshold required to be
       eligible for TANF basic assistance on the payment date selected by checking the State
       agency’s Client Information System and the case file;

   •   the recipient family was not receiving concurrent payments from more than one State by
       reviewing data from the ACF Public Assistance Reporting Information System;

   •   no member of the recipient family was a fugitive felon or parole violator by reviewing
       information from the State’s Income Eligibility Verification System, the Pennsylvania
       Clerk of Courts, and the case file;

   •   the recipient family complied with child support requirements by reviewing information
       from the Pennsylvania Child Support Enforcement System and the case file;

   •   assistance was not provided to any adult member, minor head of household, or minor
       spouse in the recipient family beyond allowable time limits by reviewing information
       from the State agency’s Client Information System; and

   •   the parent or caretaker in the recipient family met work requirements by reviewing the
       case file.

We estimated, for the total universe of 1,033,318 TANF monthly basic assistance payments, the
total Federal dollar value of payments with eligibility or calculation errors and with
documentation errors. We also estimated, for the total universe, the total number of these
improper payments.

In addition, we determined the improper payment rate in dollars by dividing the estimated
improper Federal dollars by the total Federal dollars in the universe. We also determined the
improper payment rate for the number of payments in error by dividing the estimated number of
improper payments by the total number of payments in the universe.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency made some TANF basic assistance payments that did not meet Federal and
State requirements and did not adequately document all eligibility and payment determinations.
The State agency accurately reported basic assistance expenditures to ACF.

Of the 150 payments in our statistical sample, 24 payments totaling $3,434 (Federal share) were
improper because the recipient families were ineligible for TANF basic assistance, the payments



                                                5
were calculated improperly, or the case files did not contain all required documentation
supporting eligibility and payment determinations. We did not identify any errors in the
remaining 126 payments.

Based on our sample results, we estimated that the overall TANF improper payment rate was
11.7 percent of the Federal dollars expended and 16 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$23,659,002 (Federal share) for 165,331 overpayments. (See page 10 for additional statistical
estimates.)

IMPROPER PAYMENTS

Table 1 summarizes the errors noted in the 24 improper payments in our sample.

                           Table 1: Summary of Improper Payments
                                                                      Improper          No. of
                                                                       Federal         Improper
                          Type of Error
                                                                      Payments         Payments
Eligibility and Payment Calculation Errors
 Recipient families were ineligible:
   Income threshold exceeded on payment dates                            $313               2
   Resource threshold exceeded on payment dates                           268               2
   Household composition requirements not met                             110               1
   Child support requirements not met                                     104               1
       Subtotal                                                          $795               6
  Payments were calculated improperly:
   Incorrect household income                                            $137               4
   Incorrect household size                                               117               2
   Incorrect sanction calculation                                          27               1
        Subtotal                                                         $281               7
      Subtotal                                                          $1,076             13
Documentation Errors
 Documentation was not sufficient to support eligibility and
   payment determinations                                               $2,358             11
         Total                                                          $3,434             24

We have provided details on each of these payment errors to the State agency.

Eligibility and Payment Calculation Errors

Recipient Families Were Ineligible

State regulations (55 PA. CODE § 125.24(b)) require the county assistance offices to inform each
applicant and recipient, at the time of application and subsequently, of his or her initial and
continuing responsibilities to furnish accurate, complete, and current eligibility information. In



                                                   6
addition, 55 PA. CODE §§ 125.24(c)(3) and (d)(1) require each applicant to promptly report any
changes that may affect eligibility or the amount of the monthly assistance payment.

Pursuant to 45 CFR § 263.2(b)(3), income and resource thresholds are established by the State
and must be included in the State plan. Generally, income thresholds vary based on the number
of family members in the household. Federal regulations (45 CFR §§ 205.51 and 205.55)
establish requirements for income and eligibility verification. These regulations, which govern
the Income and Eligibility Verification System, require a State to request information from other
agencies to verify individuals’ eligibility for assistance under the State plan and the correct
amount of assistance payments for applicants and recipients. State regulations (55 PA. CODE
§§ 177.21(a)(2) and 177.31) set a resource threshold of $1,000 for the family, with certain
exceptions.

Section 408(a)(1) of the Act requires that a State not use any part of the TANF grant to provide
assistance to a family unless the family includes a minor child who resides with the family or
includes a pregnant woman. State regulations (55 PA. CODE §§ 151.41–151.43) provide that to
receive TANF assistance, a family must include (1) a child living with a specified relative
capable of and responsible for the care and control of the child or (2) a pregnant woman.

Federal regulations (45 CFR § 264.30(a)) require the State agency to refer to the child support
enforcement agency all appropriate individuals in the family of a child for whom paternity has
not been established or for whom a child support order needs to be established, modified, or
enforced. State regulations (55 PA. CODE § 187.23(b)) require, as a condition of eligibility for
cash assistance, that every applicant or recipient seeking or receiving cash assistance on behalf of
an unemancipated minor child cooperate in establishing the child’s paternity and in obtaining
support unless good cause is established for failing to do so. The State’s “Cash Assistance
Handbook,” section 131.31, states that if an applicant household consists of a single adult who
fails to cooperate in securing support from an absent spouse, the adult is ineligible for cash
assistance. This requirement applies even if the child receives Supplemental Security Income
(SSI). If the applicant household consists of a minor child and if the parent or caregiver fails to
cooperate in securing support, the TANF payment is reduced by 25 percent.

Of the 150 sampled payments, 6 payments totaling $795 (Federal share) were made to or on
behalf of recipient families who did not meet Federal and State eligibility requirements:

   •   For two overpayments totaling $313 (Federal share), the recipient families’ household
       incomes exceeded the TANF basic assistance income threshold on the payment dates.

   •   For two overpayments totaling $268 (Federal share), the recipient family’s household
       resources exceeded the TANF basic assistance resource threshold on the payment dates.

   •   For one overpayment totaling $110 (Federal share), the recipient family did not include a
       minor child or a pregnant woman.




                                                 7
   •   For one overpayment totaling $104 (Federal share), the recipient family consisted of a
       single adult who did not pursue child support because State agency personnel had
       mistakenly advised her that pursuing child support was not required for a disabled child
       receiving SSI.

Payments Were Calculated Improperly

State regulations (55 PA. CODE § 171.21(a)(1)) establish the household members who must be
included in a TANF budget group for purposes of calculating assistance payments. The family
size allowance, which is based on the number of eligible household members and the county of
residence, represents the maximum monthly assistance payment to a recipient family. The State
must apply TANF income requirements, including all allowable deductions, to the family size
allowance to calculate the basic assistance payment (55 PA. CODE § 183.101(c)).

Section 408(a)(9)(A)(ii) of the Act prohibits TANF assistance for individuals who have not
complied with the terms and conditions of their probation or parole imposed under Federal or
State law. In accordance with 62 PA. STAT. ANN. § 432(9), section VI(A)(7) of the State plan
provides that an individual who has been sentenced for a felony or misdemeanor offense and
who has not satisfied the penalty imposed by the court is ineligible for TANF assistance. An
ineligible person must be excluded from the budget group (55 PA. CODE § 171.21(a)(1)).

State regulations (55 PA. CODE § 187.23(b)) require, as a condition of eligibility for cash
assistance, that every applicant or recipient seeking or receiving cash assistance on behalf of an
unemancipated minor child cooperate in establishing the child’s paternity and in obtaining
support unless good cause is established for failing to do so. Section 408(a)(2) of the Act
provides that if an individual does not cooperate with the State in establishing paternity or in
establishing, modifying, or enforcing a support order, the State must reduce basic assistance by
at least 25 percent or may deny the family any assistance. The State’s “Cash Assistance
Handbook,” section 131.31, states that if an applicant household consists of a single adult who
fails to cooperate in securing support from an absent spouse, the adult is ineligible for cash
assistance. If the applicant household consists of a minor child and if the parent or caregiver
fails to cooperate in securing support, the TANF payment is reduced by 25 percent.

Of the 150 sampled payments, 7 payments totaling $281 (Federal share) were made to or on
behalf of recipient families who were eligible for basic assistance but for whom payments were
calculated improperly:

   •   For four overpayments totaling $137 (Federal share), the State agency used incorrect
       income amounts in its payment calculations.

   •   For two overpayments totaling $117 (Federal share), the State agency used incorrect
       family size allowances in its payment calculations. The budget groups improperly
       included household members who were not in compliance with the terms and conditions
       of their probation or parole.




                                                 8
   •   For one overpayment totaling $27 (Federal share), the State agency did not reduce the
       monthly payment by 25 percent for a child-only budget group for which the caregiver did
       not pursue child support. State agency personnel had instructed this individual to pursue
       child support from both parents, but the individual pursued support from only one parent.

Documentation Errors

State agencies are required to maintain records regarding applications and eligibility
determinations for the provision of financial assistance. Included in such records should be facts
supporting initial and continuing eligibility determinations (45 CFR § 205.60(a)). OMB Circular
A-123, Appendix C, part I.A, states that when a Federal agency’s review is unable to discern
whether a payment was proper as a result of insufficient or lack of documentation, this payment
must be considered an error.

Pursuant to 55 PA. CODE § 125.1(a), a State-approved application form must be completed for
each case. All variable factors of need and eligibility must be reconsidered, reevaluated, and
verified at least every 6 months (55 PA. CODE § 133.23(a)(1)(v)(A)). Pursuant to 55 PA. CODE
§ 125.1, each applicant for and recipient of cash assistance and other individuals who are
required to sign an application must sign an agreement of mutual responsibility specifying the
individual’s obligations pertaining to work-related activities, child health care, and other
requirements.

The case files for 11 sampled payments totaling $2,358 (Federal share) did not contain adequate
documentation to support eligibility and payment determinations. For three of these
overpayments, the case files did not contain any documentation to support the eligibility
determinations for the payment months. For the remaining eight overpayments, the case files
lacked an application, documentation of an eligibility redetermination, or an agreement of mutual
responsibility covering the payment months.

CONCLUSION

Some of the sampled payments did not meet Federal and State eligibility, payment, or
documentation requirements. For these payments, (1) recipient families did not notify the State
agency’s county assistance offices of changes in financial situation or other changes affecting
eligibility; (2) recipient families disclosed information properly, but the county assistance offices
made errors in applying child support requirements or in determining the income, resources, or
size of the budget group; or (3) the county assistance offices did not maintain appropriate
documentation to support eligibility and payment determinations.

Based on our sample results, we estimated that the overall TANF improper payment rate was
11.7 percent of the Federal dollars expended and 16 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$23,659,002 (Federal share) for 165,331 overpayments. Table 2 on the next page summarizes
our statistical estimates. (See Appendix D for details on our sample results and estimates.)




                                                  9
                             Table 2: Statistical Estimates of Improper Payments

                                                         Improper Payment Rate     Improper Payments

                                                          Federal     No. of      Federal       No. of
                     Error Category                       Dollars    Payments     Dollars      Payments
      Eligibility and payment calculation errors            3.6%       8.7%       $7,417,206     89,554

      Documentation errors                                 8.1%        7.3%       16,241,796     75,777

           Overall                                         11.7%      16.0%      $23,659,002    165,331

We are not recommending recovery of the overpayments identified in this report primarily
because ACF decided to assess penalties 4 in the TANF program rather than take disallowances
in response to audit findings.

RECOMMENDATIONS

We recommend that the State agency:

       •    use the results of this review to help ensure compliance with Federal and State TANF
            requirements by (1) reemphasizing to recipients the need to provide accurate and timely
            information and (2) requiring its county assistance office employees to verify eligibility
            information and maintain appropriate documentation in all case files,

       •    determine the current eligibility of all recipients identified in this review as improperly
            enrolled in the TANF program and ensure that further assistance is denied for those who
            remain ineligible, and

       •    recalculate assistance budgets for all recipients identified in this review as having
            received improperly calculated payments.

STATE AGENCY COMMENTS

In its October 10, 2008, comments on our draft report, the State agency expressed its concerns
about developing a national TANF payment error rate because States are allowed to use different
methodologies, eligibility criteria, sanction rules, and operational procedures in their programs.
Nevertheless, the State agency concurred with all of our recommendations and provided
information on steps that it had taken or planned to implement the recommendations. The State
agency’s comments are included in their entirety as Appendix E.

The State agency separately provided additional information about one budget calculation.




4
    Penalties are set forth in section 409 of the Act.


                                                           10
OFFICE OF INSPECTOR GENERAL RESPONSE

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
annual amount of improper payments in their programs and to report that estimate to Congress.
As stated on page 1 of this report, ACF and OMB requested this review of the TANF program
for fiscal year 2008 performance and accountability reporting.

After reviewing the State agency’s additional information, we revised one payment
determination, as well as our statistical estimates and error rates.




                                              11
APPENDIXES
                                                                                 APPENDIX A
                                                                                   Page 1 of 3

    FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   Section 401 of the Social Security Act (the Act) states that one purpose of the Temporary
    Assistance for Needy Families (TANF) program is to provide assistance to needy
    families.

•   The Federal Register, Vol. 64, No. 69, page 17825 (April 12, 1999) defines a needy
    family as one that is financially deprived, i.e., lacking adequate income and resources.

•   Regulations (45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and
    other forms of benefits designed to meet a family’s ongoing basic needs (i.e., food,
    clothing, shelter, utilities, household goods, personal care items, and general incidental
    expenses), as well as supportive services, such as transportation and childcare provided to
    families whose household heads are not employed.

•   Regulations (45 CFR § 263.2(b)) state that cash assistance benefits may be provided only
    to or on behalf of eligible families.

•   Section 408(a)(1) of the Act requires that a State not use any part of the grant to provide
    assistance to a family unless the family includes a minor child who resides with the
    family or includes a pregnant woman.

•   Section 408(a)(4) of the Act requires that a State not use any part of the TANF grant to
    provide assistance to an individual who has not attained 18 years of age, is not married,
    has a minor child at least 12 weeks of age in his or her care, and has not successfully
    completed a high school education or its equivalent.

•   Section 408(a)(7) of the Act and 45 CFR § 264.1(a)(1) provide that a State may not use
    Federal TANF funds to provide assistance to a family that includes an adult who has
    received Federal assistance for more than 60 cumulative months. However, 45 CFR
    § 264.1(c) allows States the option to extend assistance beyond the 5-year limit for up to
    20 percent of the average monthly number of families receiving assistance during the
    fiscal year on the basis of hardship, as defined by the State, or battery of a family
    member.

•   Regulations (45 CFR § 261.10(a)(1)) require that a parent or caretaker receiving
    assistance engage in work activities when the State has determined that the individual is
    ready to do so or when the individual has received assistance for a total of 24 months,
    whichever is earlier.

•   Regulations (45 CFR §§ 205.52(a)(1) and (2)) require, as a condition of eligibility, that
    each applicant for or recipient of aid furnish his or her Social Security number to the
    State or local agency. If the individual cannot recall or was not issued a Social Security
    number, the individual is required to apply to the Social Security Administration (SSA)
                                                                                                 APPENDIX A
                                                                                                   Page 2 of 3

        for a number through procedures adopted by the State or local agency. If such
        procedures are not in effect, the individual must apply directly for such a number, submit
        verification of such application, and provide the number upon its receipt.

    •   Regulations (45 CFR § 205.52(g)) require the State agency to submit all unverified Social
        Security numbers to SSA for verification. 1

    •   Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
        (Public Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646) requires a TANF
        recipient to be a citizen or national of the United States or a qualified alien. Legal
        resident aliens and other qualified aliens who entered the United States on or after
        August 22, 1996, are ineligible for assistance for the first 5 years after entry.

    •   Regulations (45 CFR § 263.2(b)(3)) state that TANF basic assistance income and
        resource thresholds are established by the State and must be included in the State plan.
        The income threshold, which is subject to adjustments, varies based on the number of
        members in the household.

    •   Regulations (45 CFR §§ 205.51 and 205.55) establish requirements for income and
        eligibility verification. These regulations governing the Income and Eligibility
        Verification System require States to request information from other Federal and State
        agencies to verify individuals’ eligibility for assistance under the State plan and the
        correct amount of assistance payments for applicants and recipients.

    •   Regulations (45 CFR § 264.30(a)) require the State agency to refer to the child support
        enforcement agency all appropriate individuals in the family of a child for whom
        paternity has not been established or for whom a child support order needs to be
        established, modified, or enforced. Referred individuals must cooperate in establishing
        paternity and in establishing, modifying, or enforcing a support order with respect to the
        child.

    •   Section 408(a)(2) of the Act provides that if an individual does not cooperate with the
        State in establishing paternity or in establishing, modifying, or enforcing a support order,
        the State must reduce assistance by at least 25 percent or may deny the family any
        assistance.

    •   Section 408 of the Act prohibits assistance for individuals who (1) fail to assign support
        rights to the State, (2) fail to attend high school or an equivalent training program when
        the individual is a teenage parent, (3) fail to reside in an adult-supervised setting when the
        household head is a teenager, (4) are fugitive felons or parole violators, or (5) are minor
        children absent from the home or parents who fail to notify the State agency of the
        absence.


1
 The State agency may accept as verified a Social Security number provided directly to the State agency by SSA or
by another Federal or federally assisted benefit program that has received the number from SSA or has submitted it
to SSA for verification.
                                                                                APPENDIX A
                                                                                  Page 3 of 3

•   The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
    Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646), section 115(a)(1), prohibits
    assistance for individuals who have been convicted of a drug-related felony.

•   Regulations (45 CFR § 205.60(a)) require State agencies to maintain records regarding
    applications and eligibility determinations for the provision of assistance. Included in
    such records should be facts supporting initial and continuing eligibility determinations.

•   Regulations (45 CFR part 265) establish that States must report TANF financial data on a
    quarterly basis to ACF. Pursuant to 45 CFR §§ 265.7(a) and 265.4(a), each State’s
    quarterly reports must be complete, accurate, and filed within 45 days of the end of the
    quarter. A complete and accurate report means that (1) the reported data accurately
    reflect information available to the State in case records, financial records, and automated
    data systems; (2) the data are free from computational errors and are internally consistent;
    and (3) the reported data include all applicable elements (45 CFR § 265.7(d)).
                                                                                APPENDIX B
                                                                                  Page 1 of 3

     STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   Title 62 of the Pennsylvania Statutes Annotated (Public Welfare Code) § 102 defines the
    Department of Public Welfare as “the Department,” referred to as “the State agency” in
    this report. Section 403 of the Public Welfare Code establishes the authority of the State
    agency to maintain the uniform administration of public welfare programs, including
    TANF, in Pennsylvania.

•   Title 55 of the Pennsylvania Administrative Code (PA. CODE) §§ 125.24(c)(7)(v) and
    171.21(a)(1) establish that a county assistance office will determine public assistance
    eligibility for all household members.

•   Regulations (55 PA. CODE § 125.1) require that a State-approved application form be
    completed for each case.

•   Regulations (55 PA. CODE §§ 151.41–151.43) state that to receive TANF assistance, a
    family must include (1) a child living with a specified relative capable of and responsible
    for the care and control of the child or (2) a pregnant woman.

•   Pursuant to 55 PA. CODE § 151.43(d)(1), the temporary absence of either the child or a
    relative from the home will not affect the child’s eligibility for TANF assistance as long
    as the absence of the child is not more than, or expected to be more than, 180 consecutive
    days.

•   Regulations (55 PA. CODE § 149.23) state that a person who is not a U.S. citizen is not
    eligible for TANF assistance unless that person is an alien lawfully admitted for
    permanent residence or otherwise permanently residing in the United States under
    provisions of law.

•   Pursuant to 55 PA. CODE § 125.1, each applicant for and recipient of cash assistance and
    other individuals who are required to sign an application must sign an agreement of
    mutual responsibility that must be signed and approved by the county assistance office.
    The agreement specifies the individual’s obligations pertaining to work-related activities,
    child health care, and other requirements. In addition, if substance abuse is determined to
    be a barrier to employment, the individual is required to remain free of alcohol and illegal
    drugs and participate in an approved treatment program.

•   Regulations (55 PA. CODE § 141.21(d)(2)) require the applicant to furnish a Social
    Security number, or proof of having applied for a Social Security number, for each family
    member for whom assistance is to be granted or is being received.

•   Regulations (55 PA. CODE § 187.23(b)) state that as a condition of eligibility for cash
    assistance, every applicant or recipient seeking or receiving cash assistance on behalf of
    an unemancipated minor child must cooperate in establishing the paternity of the child
                                                                                 APPENDIX B
                                                                                   Page 2 of 3

    and in obtaining support from a legally responsible relative of the child unless the
    applicant or recipient establishes good cause for failing to do so.

•   The State’s “Cash Assistance Handbook,” section 131.31, states that if an applicant
    household consists of a single adult who fails to cooperate in securing support from an
    absent spouse, the adult is ineligible for cash assistance. This requirement applies even if
    the child receives Supplemental Security Income (SSI). If the applicant household
    consists of a minor child and if the parent or caregiver fails to cooperate in securing
    support, the TANF payment is reduced by 25 percent.

•   Regulations (55 PA. CODE § 165.1(a)) state that a recipient who is not exempt must
    participate in the Road to Economic Self-Sufficiency Through Employment and Training
    program. Also, 55 PA. CODE § 165.31 states that nonexempt individuals who are not
    employed for an average of at least 20 hours per week must accept referral to, and
    participate in, available work-related activities, including those specified in the agreement
    of mutual responsibility.

•   Pursuant to 55 PA. CODE § 145.43, a child is eligible for assistance if he or she is under
    age 18 or if he or she is under age 19 and a full-time student regularly attending a
    secondary school or in the equivalent level of vocational or technical training.

•   Regulations (55 PA. CODE § 147.41) state that to be eligible for assistance, a person must
    live in the State at the time of application, other than for temporary purposes.

•   Pursuant to 55 PA. CODE §§ 177.21, 177.22, and 177.31, the maximum amount of assets
    that a family may own and still qualify for assistance is $1,000. However, certain items
    may be excluded from the asset calculation, such as resident property owned by an
    applicant or recipient, basic items essential for day-to-day living, the full value of one
    automobile, and educational savings accounts or monies related to educational expenses.

•   Regulations (55 PA. CODE § 183.101(c)) state that a person is ineligible for assistance if,
    after the application of TANF income requirements, the net income, when prospectively
    determined, equals or exceeds the family size allowance.

•   Regulations (55 PA. CODE § 183.53) state that the income of an SSI recipient is not
    considered available to meet the needs of an applicant or recipient except those payments
    made to the applicant or recipient for goods, services, and room and board. An individual
    receiving SSI must be excluded from the budget group.

•   The Public Welfare Code § 432(9) states that “[a]ssistance may not be granted to any
    person who has been sentenced for a felony or misdemeanor offense and who has not
    otherwise satisfied the penalty imposed on that person by law.” Regulations (55 PA.
    CODE § 141.21(t)) state that an individual who is fleeing to avoid prosecution, custody, or
    confinement following a conviction for a felony is ineligible for cash assistance. The
    State plan, section VI(A)(7), provides that an individual who is violating probation or
                                                                                APPENDIX B
                                                                                  Page 3 of 3


    parole imposed under Federal or State law or who has been sentenced for a felony or
    misdemeanor offense and has not satisfied the penalty imposed by the court is ineligible
    for TANF assistance.

•   Regulations (55 PA. CODE §§ 201.1(1) and 201.3) state that the client must be the
    primary source of information in establishing eligibility for financial assistance and must,
    to the extent possible, substantiate the information provided by documentary evidence or
    other means. In addition, conditions of eligibility must be verified at the application
    interview and at the time of a redetermination (complete or partial).

•   Pursuant to 55 PA. CODE § 125.24(b)(5), the county assistance office must inform each
    applicant and recipient, at the time of application and subsequently, of his or her initial
    and continuing responsibilities to furnish accurate, complete, and current eligibility
    information. In addition, 55 PA. CODE § 125.24(c)(3) requires each applicant to promptly
    report any changes that may affect eligibility or the amount of the monthly assistance
    payment.

•   Regulations (55 PA. CODE § 133.23(a)(1)(v)(A)) require, as a condition of eligibility, that
    every cash assistance budget group have a complete redetermination semiannually.
    Section VI(A)(7) of the State plan in part supersedes the provision of the regulations and
    requires a complete redetermination annually, provided that the applicant submits an
    annual reporting form completed for the alternate 6-month review period.
                                                                                APPENDIX C
                                                                                  Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

SAMPLE OBJECTIVE

Our objective was to determine whether the State agency made TANF basic assistance payments
to or on behalf of recipient families in accordance with Federal and State requirements and
adequately documented eligibility and payment determinations.

AUDIT UNIVERSE

The universe consisted of all TANF basic assistance payments made for the 12-month audit
period that ended March 31, 2007.

SAMPLING FRAME

The sampling frame was a computer file containing 1,033,318 monthly basic assistance payments
to or on behalf of TANF recipients in Pennsylvania for the 12-month period that ended
March 31, 2007. The total TANF reimbursement for the 1,033,318 payments was $333,730,859
($201,625,124 Federal share).

SAMPLE UNIT

The sample unit was a monthly TANF basic assistance payment to or on behalf of a recipient
family for the audit period. The payment included all basic assistance payments made to or on
behalf of the family for the month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 150 monthly TANF basic assistance payments.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, statistical sampling software, RAT-STATS 2007, version 1. We used the random
number generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the payments in our sampling frame and selected the sequential
numbers that correlated to the random numbers. We then created a list of 150 sampled items.
                                                                                    APPENDIX C
                                                                                      Page 2 of 2

CHARACTERISTICS TO BE MEASURED

We based our determination of whether each sampled payment was improper on Federal and
State laws, regulations, and other requirements. Specifically, if at least one of the following
characteristics was met, we considered the payment under review improper:

   •   The recipient family did not meet one or more eligibility requirements.

   •   The recipient family was eligible for assistance but received an improper payment
       amount (overpayment or underpayment).

   •   The case file did not contain sufficient documentation to support eligibility and payment
       determinations as required by Federal and State regulations.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We estimated the total Federal dollar value of
TANF basic assistance payments with eligibility or payment calculation errors and with
documentation errors. We also estimated the total number of these improper payments.

In addition, we determined the improper payment rate for the dollars expended by dividing the
estimated improper Federal dollars by the total Federal dollars in the universe. We also
determined the improper payment rate for the number of payments in error by dividing the
estimated number of improper payments by the total number of payments in the universe.
                                                                                   APPENDIX D
                                                                                     Page 1 of 3

                           SAMPLE RESULTS AND ESTIMATES

OVERALL SAMPLE RESULTS AND ESTIMATES

                              Sample Details and Overall Results
                                    Value of                  Value of
          Value of          No. of  Sampled                  Improper
          Universe         Payments Payments                 Payments           No. of
          (Federal            in    (Federal Sample           (Federal        Improper
           Share)          Universe  Share)   Size             Share)         Payments
        $201,625,124       1,033,318    $28,561     150           $3,434          24



                                     Overall Estimates
                   Limits Calculated for a 90-Percent Confidence Interval
                                           Estimated      Estimated
                                            Value of        No. of
                                           Improper       Improper
                                           Payments       Payments
                       Point estimate     $23,659,002      165,331
                       Lower limit         13,855,505       116,609
                       Upper limit         33,462,499       224,817



                       Calculation of Overall Improper Payment Rate

Dollar value of payments     Estimated improper Federal dollars         $23,659,002    = 11.7%
                              Total Federal dollars in universe        $201,625,124

Number of payments          Estimated No. of improper payments             165,331     = 16.0%
                             Total No. of payments in universe             1,033,318
                                                                               APPENDIX D
                                                                                 Page 2 of 3

SAMPLE RESULTS AND ESTIMATES FOR ELIGIBILITY
AND PAYMENT CALCULATION ERRORS

               Sample Results—Eligibility and Payment Calculation Errors
                                 Value of              No. of
                            Improper Payments         Improper
                              (Federal Share)         Payments
                                     $1,076                13



                  Estimates—Eligibility and Payment Calculation Errors
                   Limits Calculated for a 90-Percent Confidence Interval
                                              Estimated         Estimated
                                               Value of           No. of
                                              Improper          Improper
                                              Payments          Payments
                       Point estimate         $7,417,206          89,554
                       Lower limit             3,548,393          53,762
                       Upper limit            11,286,020         138,726



   Calculation of Improper Payment Rate—Eligibility and Payment Calculation Errors

Dollar value of payments    Estimated improper Federal dollars         $7,417,206 =    3.6%
                             Total Federal dollars in universe        $201,625,124

Number of payments          Estimated No. of improper payments           89,554    =   8.7%
                             Total No. of payments in universe         1,033,318
                                                                                    APPENDIX D
                                                                                      Page 3 of 3

SAMPLE RESULTS AND ESTIMATES FOR
DOCUMENTATION ERRORS

                           Sample Results—Documentation Errors
                                  Value of                  No. of
                             Improper Payments             Improper
                               (Federal Share)             Payments
                                      $2,358                 11



                            Estimates—Documentation Errors
                   Limits Calculated for a 90-Percent Confidence Interval
                                           Estimated           Estimated
                                            Value of             No. of
                                           Improper            Improper
                                           Payments            Payments
                     Point estimate       $16,241,796           75,777
                     Lower limit               6,991,388           43,058
                     Upper limit           25,492,203             122,408



             Calculation of Improper Payment Rate—Documentation Errors

Dollar value of payments     Estimated improper Federal dollars          $16,241,796     = 8.1%
                              Total Federal dollars in universe         $201,625,124

Number of payments           Estimated No. of improper payments               75,777     = 7.3%
                              Total No. of payments in universe             1,033,318
APPENDIX E
  Page 1 of 2
APPENDIX E
  Page 2 of 2
